Case 2:18-cr-01229 Document 17 Filed on 02/27/19 in TXSD Page 1 of 12
United States District Court
Southern District of Texas

ENTERED
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
v.
AARON JOSUE ACUNA-DUENAS
a/k/a JESUS ESTRADA-GARCIA
a/k/a JOEL CRUZ-DIAZ,
Defendant.

§
§
§
§
§
§
§
§
§

February 28, 2019
David J. Bradley, Clerk

CRIMINAL NO. 2:18-1229

MEMORANDUM OPINION & ORDER
Aaron Josue Acuna-Duenas (“Defendant”) stands charged with illegal reentry in violation
of 8 U.S.C. § 1326. Pending before the Court is Defendant’s Motion to Dismiss (D.E. 12), to
which the United States of America (the “Government”) has responded (D.E. 15).
I. Background
Defendant was first placed in removal proceedings on August 18, 2006, and issued a
Notice to Appear (NTA) before an immigration judge on “a date to be set at a time to be set.”
D.E. 12, Ex. 1.1 He thereafter waived his personal appearance before the immigration judge and
admitted the allegations in the NTA that he was subject to being a non-citizen present in the U.S.
without being admitted or paroled. Id., Ex. 2. He was ordered deported to Mexico on August 31,
2006, and removed on September 12, 2006. Defendant re-entered the U.S. on at least three
occasions between 2009 and 2018, and on each occasion, the 2006 removal order was reinstated,
and he was deported.
On November 14, 2018, Defendant was charged with illegal reentry after immigration
authorities found him near Sarita, Texas. He now moves to dismiss the indictment because the
2006 NTA he received did not include the time, date, or location of his immigration hearing.
1. The 2006 NTA was issued to Jesus Estrada-Garcia, one of Defendant’s aliases.

31

Appendix I

Case 2:18-cr-01229 Document 17 Filed on 02/27/19 in TXSD Page 2 of 12

II. Pereira v. Sessions2
A removal proceeding begins with the filing of a notice to appear (NTA) in immigration
court. Garcia-Perez v. Holder, 558 F. App’x 343, 346 (5th Cir. 2013). Section 1229(a) of the
Immigration and Nationality Act (INA) provides that an NTA must contain, among other
information, the “time and place at which the [removal] proceedings will be held.” 8 U.S.C. §
1229(a)(1)(G)(i). However, a separate Department of Justice regulation requires NTAs to contain
time and place information only “where practicable.” 8 C.F.R. § 1003.18(b). “If that information
is not contained in the Notice to Appear, the Immigration Court shall be responsible for
scheduling the initial removal hearing and providing notice to the government and the alien of
the time, place, and date of hearing.” Id. Judging it impracticable to schedule a hearing at the
outset of each removal proceeding, the Department of Homeland Security (DHS) “almost always
serves noncitizens with notices that fail to specify the time, place, or date of initial removal
hearings.” Pereira v. Sessions, 138 S. Ct. 2105, 2111 (2018). Instead, a typical NTA compels the
noncitizen’s appearance at “a place to be set,” “a date to be set,” and “a time to be set.”
The Supreme Court recently addressed removal NTAs in Pereira v. Sessions, which
originated not with an illegal-reentry indictment, but with an application for cancellation of
removal. 138 S. Ct. at 2112. Cancellation of removal is a form of discretionary relief available to
unauthorized aliens who have been continuously physically present in the United States for at
least ten years. See 8 U.S.C. § 1229b(b)(1)(A). Under the so-called “stop-time rule,” an alien’s
period of continuous residence is “deemed to end . . . when the alien is served a notice to appear
under Section 1229(a).” See 8 U.S.C. § 1229b(d)(1). Pereira, a native and citizen of Brazil, had
been physically present in the United States since 2000. Pereira, 138 S. Ct. at 2112. In 2006, he
received an NTA that did not set a date or location for his removal hearing. Id. DHS mailed the
2. This excellent summary of Pereira was adapted from Judge Diana Saldana’s opinion in United States v.
Malagamba-DeLeon, 5:18-CR-691, D.E. 27 at 2–4 (S.D. Tex. Dec. 4, 2018).

32

Case 2:18-cr-01229 Document 17 Filed on 02/27/19 in TXSD Page 3 of 12

subsequent time-and-place notice to the wrong address, and Pereira, who remained unaware of
the hearing, was ordered removed in absentia in 2007. Id. In 2013, DHS reopened his earlier
removal proceedings, and Pereira applied for cancellation of removal. Id. The immigration court
held that Pereira was ineligible for cancellation because the 2006 NTA had triggered the stoptime rule, leaving Pereira with only six years of legally cognizable continuous residence. Id.
Pereira argued that his 2006 NTA was invalid because it did not contain the time and place
information required by the INA. Id. The Board of Immigration Appeals (BIA) and First Circuit
sided with the Government. Id.
The question that eventually reached the Supreme Court was: “Does a notice to appear
that does not specify the time and place at which the proceedings will be held, as required by §
1229(a)(1)(G)(i), trigger the stop-time rule?” Id. at 2113 (internal quotation marks omitted). In
other words, must an NTA contain time and place information in order to end an alien’s period
of continuous residency? The Supreme Court said yes, holding 8–1 that any NTA “that does not
inform a noncitizen when and where to appear for removal proceedings is not a notice to appear
under section 1229(a) and therefore does not trigger the stop-time rule.” Id. at 2110 (internal
quotation marks omitted).
III. Motion to Dismiss
Defendant moves the Court to dismiss his indictment under Pereira, claiming the
immigration court lacked subject matter jurisdiction to issue his original removal order in 2006
after the NTA he received failed to include a date and time for his immigration hearing. As such,
Defendant argues that his 2006 removal, and all subsequent removals arising therefrom, were
void and cannot form the basis for an indictment for illegal reentry, as he was never “removed”
as a matter of law. Defendant further argues that his removal violated due process and that he
need not satisfy the factors set forth in 8 U.S.C. § 1326(d) to collaterally attack his removal.

33

Case 2:18-cr-01229 Document 17 Filed on 02/27/19 in TXSD Page 4 of 12

The Government urges the Court to read Pereira narrowly and apply the definition of
NTA in 8 C.F.R. § 1003.15, which does not require an NTA to include a date and time, as
opposed to 8 U.S.C. § 1229(a)(1). The Government further argues that Defendant may not
collaterally attack his prior removal without satisfying § 1326(d). Finally, the Government states
that the validity of a prior removal order is not an element of an illegal reentry offense.
IV. Analysis
Defendant’s motion to dismiss involves two interrelated questions: (1) Does Pereira
extend beyond the stop-time rule to illegal reentry prosecutions? (2) If it does, may Defendant
collaterally attack his prior removal order without satisfying the factors set forth in § 1326(d)?
A. Does Pereira extend beyond the stop-time rule to illegal reentry prosecutions?
As a sister court in the Southern District of Texas recently recognized, courts are split
regarding whether Pereira controls an illegal-reentry prosecution when the defendant’s prior
removal order was based on an incomplete NTA. United States v. Lozano, 2019 WL 224178, at
*2, *10–*12 (S.D. Tex. Jan. 15, 2019) (collecting cases).
While the Fifth Circuit hasn’t directly addressed this issue, its decision in MauricioBenitez suggests that Periera is limited to the stop-time rule. On June 13, 2004, MauricioBenitez entered the United States illegally. Mauricio-Benitez v. Sessions, 908 F.3d 144, 146 (5th
Cir. 2018). The same day, DHS personally served him with an NTA charging him with being
removable under 8 U.S.C. § 1182(a)(6)(A)(i). Id. The NTA ordered Mauricio-Benitez to appear
at a removal hearing before an immigration judge at a date and time to be set. Id. The following
month, DHS sent a Notice of Hearing (NOH) to Mauricio-Benitez at the address he had provided
via regular mail, informing him that his removal hearing had been scheduled for September 21,
2004, and again warning him of the consequences of failing to appear. Id. After he failed to
attend the hearing, the immigration judge entered an in absentia order for his removal. Id.

34

Case 2:18-cr-01229 Document 17 Filed on 02/27/19 in TXSD Page 5 of 12

Almost 13 years later, Mauricio-Benitez filed a motion to reopen his removal proceedings and
rescind the in absentia removal order, alleging that he had never received notice of his removal
hearing because the immigration officer had misspelled his address. Id. After the BIA refused to
reopen his removal proceedings, Mauricio-Benitez appealed. Id. The Fifth Circuit denied his
petition for review because he failed to provide the immigration court with his correct mailing
address and because he failed to rebut the presumption of delivery of his NOH. Id.
In reaching this holding, the Fifth Circuit explicitly noted that the Supreme Court’s
Pereira decision “does not impact this conclusion,” explaining:
As the Supreme Court emphasized, “[t]he narrow question in [that] case” was
whether a NTA that does not specify the time or place of the removal hearing
triggers the “stop-time rule” for purposes of a cancellation of removal. [Pereria,
138 S.Ct.] at 2109–10; see also id. at 2113 (“[T]he dispositive question in this
case is much narrower[.]”). But cancellation and reopening are two entirely
different proceedings under immigration law with different standards of review. .
. . Because the issues in this case pertain only to reopening, Pereira’s rule
regarding cancellation is inapplicable.
Mauricio-Benitez, 908 F.3d at 148 n.1 (citing Ramat v. Nielsen, 317 F. Supp. 3d 1111, 1116–17
(S.D. Cal. 2018) (declining to apply Pereira more broadly than in stop-time rule cancellation
cases); United States v. Ibarra-Rodriguez, 2018 WL 4608503, at *3 (W.D. Okla. Sept. 25, 2018)
(distinguishing Pereira because “the ‘stop-time rule’ [was] not at issue” in the case)).
Faced with motions to dismiss illegal reentry indictments under Pereira based on
incomplete NTAs, courts in the Southern District of Texas have recognized that “the Fifth
Circuit has already noted that Pereira ‘is to be narrowly read.’” United States v. Lozano, 2019
WL 224178, at *5 (S.D. Tex. Jan. 15, 2019) (Hanen, J.); see also United States v. MalagambaDeLeon, Case No. 5:18-CR-691, D.E. 27 at 7–8 (S.D. Tex. Dec. 14, 2018) (Saldana, J.) (“[T]he
Fifth Circuit suggested without holding that Pereira is limited to the cancellation-of-removal
context. . . . Thus, the Fifth Circuit’s only invocation of Pereira to date appears to approve—

35

Case 2:18-cr-01229 Document 17 Filed on 02/27/19 in TXSD Page 6 of 12

though not yet adopt—a restrictive reading of the case.”). However, courts in this District are
nonetheless split on whether an incomplete NTA renders a removal order jurisdictionally
defective.
Relying on Mauricio-Benitez, the court in Lozano wrote:
This Court cannot agree with that basic proposition [that the Supreme Court found
that no jurisdiction exists if a specific time and place is not included on the initial
NTA] because the Supreme Court never made such a holding. In fact, it is clear
that the majority opinion was purposefully narrow. The word “jurisdiction” does
not appear anywhere in the Pereira majority opinion. To read that requirement
into the majority’s opinion either assumes that the majority of the Supreme Court
did not understand the significance of that term or that they were purposefully
trying to hide the opinion’s real meaning from the rest of the federal judiciary.
This Court will not presume either. If the Supreme Court had wanted to reach this
result it could have easily held that the failure to include the time and place of a
hearing in the NTA is jurisdictional. It did not.
***
If Pereira is inapplicable to a motion to reopen removal proceedings—which are
factually and legally more similar to Pereira’s cancellation scenario than a 1326
illegal reentry prosecution—logic dictates Pereira does not control a criminal
prosecution wherein the defendant not only had notice, but attended his removal
proceeding.
Lozano, 2019 WL 224178, at *4–*5.
The court then distinguished NTAs filed with the immigration court versus those served
upon aliens, and quoted approvingly at length from the Western District of Virginia’s opinion in
Cortez, which held that “neither Pereira nor 8 U.S.C. § 1229(a) control when and how subject
matter jurisdiction over a removal proceeding vests in an immigration court. Rather, separate
federal regulations promulgated by the Attorney General dictate when and how an immigration
court gains subject matter jurisdiction.” United States v. Cortez, 2018 WL 6004689, at *3 (W.D.
Vir. Nov. 15, 2018).
“By contrast to these regulations concerning the required content of notices to
appear filed with the immigration court for jurisdictional purposes [8 C.F.R. §§
1003.13 and 1003.15], Pereira and 8 U.S.C. § 1229(a)(1) concern the required
content of notices to appear ‘given . . . to the alien’ either in person, by mail, or by

36

Case 2:18-cr-01229 Document 17 Filed on 02/27/19 in TXSD Page 7 of 12

delivery to the alien’s counsel. Section 1229(a)(1)(A)-(G) lists ten items that must
be specified in notices to appear given to the alien, including ‘[t]he time and place
at which the proceedings will be held.’ 8 U.S.C. § 1229(a)(1)(G)(i). Neither §
1229(a)(1) nor Pereira address the immigration court’s subject matter jurisdiction
over the proceeding.”
Lozano, 2019 WL 224178, at *6 (quoting Cortez, 2018 WL 6004689 at *3).
Finally, the court explained that due process is not violated where, unlike in Pereira, the
alien had actual notice of the hearing:
Obviously, a complete lack of notice, as occurred in Pereira, would trigger due
process concerns. Due process requires notice and an opportunity to be heard.
Each Defendant herein was afforded both. In fact, both Defendants requested
expedited hearings and both knowingly waived their appeals. . . . “Notably, the
Supreme Court [in Pereira] did not disturb the well-settled precedent that an
original defective notice to appear may be cured by a subsequent notice of
hearing.”
Lozano, 2019 WL 224178 at *7 (quoting United States v. Arreola-Zambrano, No. CR-18-01391001-PHX-OJH, D.E. 40 (D. Ariz. Nov. 16, 2018) and citing Chambers v. Mukasey, 520 F.3d 445
(5th Cir. 2008) (actual notice and appearance waived any challenge to the NTA)).
The court in Malagamba-DeLeon, however, was “skeptical that two separate and
contradictory regulatory definitions of the NTA can continue to operate side by side simply
because one regulation cites to the text of the INA and the other does not.” Malagamba-DeLeon
at 16. “More likely, Section 1229’s language requiring NTAs to include time and place
information governs all immigration regulations that mention NTAs, whether they crossreference the statute or not.” Id. “And if an NTA must contain time and place information in
order to be valid for any purpose, then the jurisdictional regulation must yield to the statute,
rendering all removal orders that rely on incomplete NTAs jurisdictionally defective.” Id. at 16–
17. The Tzul Court similarly chose to extend Pereira’s application beyond the stop-time rule to
illegal reentry prosecutions: “The text of both the regulation and the statute support
[Defendant’s] argument that § 1003.14(a) is exactly what it appears to be—a necessary trigger

37

Case 2:18-cr-01229 Document 17 Filed on 02/27/19 in TXSD Page 8 of 12

for the jurisdiction of an immigration court. . . . The Court finds that Pereira’s time-and-place
requirement applies to the regulation vesting jurisdiction in an immigration court.” United States
v. Tzul, 2018 WL 6613348, at *5–*6 (S.D. Tex. Dec. 4, 2018) (Ellison, J.) (internal citations
omitted).
B. May a defendant collaterally attack a prior removal order under Pereira in an
illegal reentry prosecution without satisfying § 1326(d)?
Section 1326(d) provides that an alien charged with illegal reentry may not challenge the
validity of the underlying removal order unless he or she demonstrates that:
(1) the alien exhausted any administrative remedies that may have been available
to seek relief against the order;
(2) the deportation proceedings at which the order was issued improperly
deprived the alien of the opportunity for judicial review; and
(3) the entry of the order was fundamentally unfair.
8 U.S.C. § 1326(d).
A § 1326 defendant challenging his or her prior removal order must prove all three
prongs to prevail. United States v. Cordova-Soto, 804 F.3d 714, 719 (5th Cir. 2015). “If the alien
fails to establish one prong of the three part test, the Court need not consider the others.” United
States v. Mendoza-Mata, 322 F.3d 829, 832 (5th Cir. 2003). The Fifth Circuit further requires the
defendant to demonstrate that the underlying removal proceedings caused “actual prejudice.”
United States v. Benitez-Villafuerte, 186 F.3d 651, 658 (5th Cir. 1999). “Actual prejudice” means
“there was a reasonable likelihood that but for the errors complained of the defendant would not
have been deported.” Id. at 659.
Three of the four courts in the Southern District of Texas to consider the issue have held
that a defendant in an illegal reentry prosecution must satisfy § 1326(d) in order to collaterally
attack the underlying removal order, even where the basis for the defendant’s challenge is that

38

Case 2:18-cr-01229 Document 17 Filed on 02/27/19 in TXSD Page 9 of 12

the immigration court lacked subject matter jurisdiction to issue the removal order based on an
incomplete NTA.
The Lozano decision found that, assuming Pereira extended to illegal reentry cases, “at
best, [the defendants’] argument supports the conclusion that their removals were voidable, not
void.” Lozano, 2019 WL 224178, at *9. In order to void those orders in their § 1326
prosecutions, each defendant was still required to “demonstrate that he/she: 1) exhausted his/her
administrative remedies; 2) was improperly deprived of judicial review; and 3) the entry of the
removal order was fundamentally unfair.” Id. at *7 (citing Cordova-Soto, 804 F.3d at 719). Even
if their prior removal orders were invalid under Pereira, the defendants could not collaterally
attack those orders in their illegal reentry prosecutions because they failed to comply with any of
the three prongs of § 1326(d). Id. at *8–*10 (citing United States v. Zapata-Cortinas, 2018 WL
6061076 (W.D. Tex. Nov. 20, 2018)) (“Having considered both lines of arguments and the
numerous decisions that have come out in the period since Pereira, the Court concludes that (i) a
removal order that suffers jurisdictional defects may serve as the basis for a § 1326(a)
prosecution, and (ii) a § 1326 defendant must satisfy the requirements of § 1326(d) in order to
collaterally attack the underlying removal order.”)).
The court in Malagamba-DeLeon similarly concluded that, assuming the defendant’s
claim that the immigration court lacked jurisdiction to enter the removal order was correct, he
was not entitled to relief because he had not met the requirements of § 1326(d): “The fact that
Defendant chose ‘not to make the attempt’ to access an administrative or judicial appeals tribunal
‘does not mean that he was deprived of . . . judicial review.’” Malagamba-DeLeon at 20 (quoting
United States v. Roque-Espinoza, 338 F.3d 724, 729 (7th Cir. 2003)).
The court in Escobar-Espinosa did not apply the Pereira decision at all when addressing
the defendant’s motion to dismiss an illegal reentry charge for lack of a valid NTA, but instead

39

Case 2:18-cr-01229 Document 17 Filed on 02/27/19 in TXSD Page 10 of 12

denied the defendant’s motion solely because he failed to satisfy § 1326(d). United States v.
Escobar-Espinosa, 1:18-CR-842, D.E. 23 (S.D. Tex. Dec. 4, 2018) (Rodriguez, Jr., J). The court
held, “The fact that Mr. Escobar grounds his challenge on the argument that the Immigration
Court lacked subject matter jurisdiction does not trigger a distinct analysis: § 1326(d) still
controls. Mr. Escobar does not provide any authority supporting his contention that the absence
of subject matter jurisdiction affords him an avenue apart from § 1326(d) to collaterally attack
the removal order.” Id. at 2 (citing United States v. Mendoza, 481 U.S. 828 (1987)).
Only one decision in this District has held that a jurisdictional challenge to a prior
removal order under Pereira is not barred by § 1326(d). The Tzul Court held that the defendant’s
prior removal order was not merely voidable, but was “issued ultra vires and is void. . . . As the
2009 removal order was invalid, the government cannot meet its burden to prove an element of
the offense, and the indictment should be dismissed.” Tzul, 2018 WL 6613348 at *6 (internal
citations omitted).
Finally, the Court recognizes that several cases from the Western District of Texas have
held that Pereira bars an illegal-reentry prosecution when the defendant’s prior removal order
was based on an incomplete NTA. See United States v. Vargas-Osorio, 2018 WL 6201957
(W.D. Tex. Nov 28, 2018); United States v. Pedroza-Rocha, 2018 WL 6629649 (W.D. Tex.
Sept. 21, 2018); United States v. Leon-Gonzalez, No. 3:18-CR-2593, D.E. 32 (W.D. Tex. Nov.
20, 2018); United States v. Lopez-Urgel, No. 1:18-CR-0310-RP, D.E. 30 (W.D. Tex. Nov. 14,
2018); United States v. Alfredo Valladares, No. 1:17-CR-156-SS, D.E. 44 (W.D. Tex. Oct. 30,
2018). However, while these cases “have carved out an exception to Section 1326(d) for illegalreentry cases predicated on defective NTAs” and held that “neither actual notice nor the
defendant’s appearance at his removal hearing can cure this fundamental defect[,] . . . there are
signs that the Western District of Texas may be reversing course.” Malagamba-DeLeon at 13

40

Case 2:18-cr-01229 Document 17 Filed on 02/27/19 in TXSD Page 11 of 12

(citing United States v. Hernandez-Lopez, 2018 WL 6313292 (W.D. Tex. Dec. 3, 2018); United
States v. Sandoval-Cordero, 2018 WL 6253251 (W.D. Tex. Nov. 29, 2018)). “Chief Judge
Garcia is now of the opinion that ‘even if [a] Defendant’s prior Removal Order may have been
invalid due to the deficient NTA . . . [the] Defendant may only challenge the validity of the prior
Removal Order . . . if he can satisfy the high bar set forth in § 1326(d).’” Malagamba-DeLeon at
14 (quoting United States v. Zapata-Cortinas, 2018 WL 6061076, at *7 (W.D. Tex. Nov. 20,
2018)). “Thus, although several other Western District cases dismissing illegal-reentry
indictments remain standing, Chief Judge Garcia’s reversal may signal a shift in the District’s
reading of Pereira.” Id.
C. Is Defendant entitled to dismissal of his illegal reentry indictment?
Having carefully considered the numerous decisions cited supra, the Court finds Lozano
to be persuasive and adopts the reasoning therein. The Court holds that Pereira does not extend
to an illegal reentry prosecution wherein the defendant not only had notice, but either attended or
waived his immigration hearing. Moreover, even assuming a defendant’s prior removal order
were voidable under Pereira because the initial NTA failed to include the time, date, and/or
location of the immigration hearing, a § 1326 defendant must nonetheless satisfy the
requirements of § 1326(d) in order to collaterally attack the underlying removal order.
Here, there is no question that the NTA issued to Defendant in 2006 did not include the
time, date, and/or location of his immigration hearing. There is also no question that he waived
his right to an immigration hearing and admitted that he was subject to being a non-citizen
present in the U.S. without being admitted or paroled. Defendant has offered no evidence that he
exhausted his administrative remedies, was improperly deprived of judicial review, or that the
entry of the removal order was fundamentally unfair. Thus, he cannot collaterally attack his prior
removal in this illegal reentry prosecution.

41

Case 2:18-cr-01229 Document 17 Filed on 02/27/19 in TXSD Page 12 of 12

V. Conclusion
For the reasons stated herein, Defendant’s Motion to Dismiss (D.E. 12) is DENIED.
It is so ORDERED this 27th day of February, 2019.

____________________________________
JOHN D. RAINEY
SENIOR U.S. DISTRICT JUDGE

42

